UNITED STATES OF AMERICA

FEDERAL TRADE COh'lMISSION
WASHINGTON. D.C. 20580

Division of Advertising Practices

Mary Koelbel Engle
Associate Director

March 15,2005

VIA FIRST-CLASS MAIL and EMAIL
Annette Dickinson, Ph.D.
President
Council for Responsible Nutrition
1828 L St. NW, Suite 900
Washington, DC 20036-5114

Re:

Council for Res~onsibleNutrition's Comulaint Against

Dear Dr. Dickinson:
Thank you for your January 12,2005, letter and subsequent materials regarding
ConsumerLab.com, LLC ("ConsumerLab) and its Product Review and Voluntary Certification
programs for testing dietary supplements and similar consumer products ("Test Programs").
Council for Responsible Nutrition alleges that ConsumerLab's "entire business model represents
an egregious form of consumer fraud and deception," and asserts, among other things, that

*

*

"[Clompanies are pressured . . . into paying a fee" for testing under the
Voluntary Certification program to avoid potential negative consequences
of having their products tested under the Product Review program; and
that
ConsumerLab's Test Programs and its reporting of test results "are likely
to mislead consumers into believing that ConsumerLab is operating in the
public interest and cannot be influenced by any outside party."

The Commission has been directed by Congress to act in the interest of all consumers to
prevent deceptive or unfair acts or practices, pursuant to Section 5 of the Federal Trade
Commission Act, 15 U.S.C. 3 45. A representation, omission, or practice is deceptive if (1) it is
likely to mislead consumers acting reasonably under the circumstances; and (2) it is "matesial,"
that is, likely to affect consumers' conduct or decisions with regard to a product or service. An
act or practice is unfair if it causes or is likely to cause injury to consumers that (1) is substantial;
(2) is not outweighed by countervailing benefits to consumers or to competition; and (3) is not

Council for Responsible Nutrition
March 15, 2005
Page 2
reasonably avoidable by consumers themselves.
In determining whether to take enforcement or other action in any particular situation, the
Commission rnay consider a number of factors, including the type of violation alleged, the nature
and amount of consumer injury at issue, the number of consumers affected, and the likelihood of
preventing future unlawful conduct and securing redress or other relief. After reviewing the
complaint and related materials, staff is not recommending agency action at this time. The
Commission reserves the right, however, to take such further action as the public interest rnay
require.
Thank you for bringing Council for Responsible Nutrition's concerns regarding
ConsumerLab.com,LLC to our attention.
Very truly yours,

cc:

Tod Cooperman, M.D.
President
ConsumerLab.com,LLC

